No.

IN THE
SUPREME COURT OF THE UNITED STATES

RICKY VINCENT PENDLETON—-PETITIONER
VS.
TERRY C. HAMRICK & TRACY P. RICE—RESPONDENTS
PROOF OF SERVICE
I, Ricky Pendleton, do swear or declare that on this
day of November, 2020, as
required by Supreme Court Rule 29,1 have served the enclosed original MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI with
APPENDICES on the following party by depositing it in the mailbox at the Mount Olive
Correctional Complex U.S. Mail prepaid postage certified mail # 7019 2280 0000 6643 8743
address down below:
Office of the Clerk
Supreme Court of the United States
1 First Street, N. E.
Washington, DC 20543

'^PencHefon,

cc: for my record
clerk, u.s. supreme court

RECEIVED
DEC - 2 2020

